               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




   In-Office Cost System Inputs into the
    Cost and Revenue Analysis Report

                      Audit Report




                                              May 30, 2012

Report Number CRR-AR-12-004
                                                                            May 30, 2012

                                            In-Office Cost System Inputs into the Cost
                                                         and Revenue Analysis Report

                                                        Report Number CRR-AR-12-004



IMPACT ON:
The U.S. Postal Service currently             determination. This would reduce
spends about $69 million annually for its     dependence on manual data collection
manual data collection efforts to prepare     and could provide annual net savings of
the Cost and Revenue Analysis report,         almost $500,000. The system
which is a key component of the Postal        enhancements would also provide
Service’s Annual Compliance Report            important benefits to cost control, mail
provided to the Postal Regulatory             acceptance, and revenue protection.
Commission (PRC). This includes about
$13 million per year to collect data for      WHAT THE OIG RECOMMENDED:
the statistical In-Office Cost System         We recommended the chief financial
(IOCS) report which is used to attribute      officer and executive vice president
labor costs to products and services.         explore replacing the current IOCS data
                                              collection model with an alternate
WHY THE OIG DID THE AUDIT:                    system to determine mail processing
Our objective was to determine whether        costs and coordinate these changes
the mail processing portion of labor          with the PRC. We also recommended
costs could be attributed to products         the vice president, Network Operations,
and services using available automated        link employee information to mail
data. We evaluated the operational            processing operations by requiring input
benefits of using automated data and          of employee information into the Web
process changes. We performed this            End-of-Run system.
review as part of our mandate under the
Postal Accountability and                     WHAT MANAGEMENT SAID:
Enhancement Act to audit the data             Management agreed with the
collection systems and procedures the         recommendations, but disagreed with
Postal Service uses in their rate-making      the cost savings estimates.
process.
                                              AUDITORS’ COMMENTS:
WHAT THE OIG FOUND:                           We consider management’s comments
With additional system enhancements,          responsive to the recommendations. We
the Postal Service could use data from        believe our savings estimate is
mail processing systems to determine          conservative and is based only on the
the mail processing portion of labor          incremental labor cost investments
costs for products and services. With         needed, as other investment costs were
the proper system changes, the Postal         accounted for in our earlier reports.
Service could obtain the census data
necessary for mail processing cost            Link to review the entire report
May 30, 2012

MEMORANDUM FOR:            JOSEPH CORBETT
                           CHIEF FINANCIAL OFFICER AND EXECUTIVE VICE
                           PRESIDENT

                           DAVID E. WILLIAMS, JR.
                           VICE PRESIDENT, NETWORK OPERATIONS



FROM:                      Darrell E. Benjamin, Jr.
                           Deputy Assistant Inspector General, Revenue and Systems

SUBJECT:                   Audit Report – In-Office Cost System Inputs into the Cost
                           and Revenue Analysis Report
                           (Report Number CRR-AR-12-004)

This report presents the results of our audit of In-Office Cost System (IOCS) inputs into
the Cost and Revenue Analysis (CRA) report (Project Number 11RG001CRR003).
Specifically, this report explores alternate ways of producing cost allocations currently
provided by the IOCS statistical program component of the CRA report using automated
data, thus reducing the need for manual data collection efforts. In addition, this report
discusses potential operational benefits from image recognition technology.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Paul Kuennen, director, Cost,
Pricing, and Rates, or me at 703-248-2100.

Attachments

cc: Joseph D. Moeller
    John E. Larrimore
    Corporate Audit and Response Management
In-Office Cost System Inputs                                                                                     CRR-AR-12-004
 into the Cost and Revenue Analysis Report



                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 2

Census Data to Estimate Mail Processing Costs ............................................................ 3

   Volume of Mail by Product ........................................................................................... 3

   Employee Workhours .................................................................................................. 3

   Hourly Labor Rate ....................................................................................................... 4

   Unit Cost Calculations ................................................................................................. 4

Operational Benefits of Enhanced Mail Imaging Technology .......................................... 5

   Cost Control................................................................................................................. 5

   Seamless Acceptance ................................................................................................. 6

   Revenue Protection ..................................................................................................... 6

   Customer Service ........................................................................................................ 6

Recommendations .......................................................................................................... 7

Management’s Comments .............................................................................................. 7

Evaluation of Management’s Comments ......................................................................... 8

Appendix A: Additional Information ................................................................................. 9

   Background ................................................................................................................. 9

   Objective, Scope, and Methodology ............................................................................ 9

   Prior Audit Coverage ................................................................................................. 10

Appendix B: Monetary Impacts ..................................................................................... 12

Appendix C: Management’s Comments ........................................................................ 13
In-Office Cost System Inputs                                                                      CRR-AR-12-004
 into the Cost and Revenue Analysis Report


Introduction

This report presents the results of our audit of In-Office Cost System (IOCS) inputs into
the Cost and Revenue Analysis (CRA) report (Project Number 11RG001CRR003). Our
objective was to determine whether the mail processing portion of labor costs could be
attributed to products and services using available automated data. This self-initiated
audit addresses financial risk. This report is the final in a series of three reports and
addresses the IOCS component of the CRA. The two prior reports1 addressed the
Transportation Cost System and the Revenue, Pieces, and Weight components of the
CRA report. See Appendix A for additional information about this audit.

The U.S. Postal Service prepares the CRA report annually to determine whether it
complied with the statutory requirement2 that each class or type of mail service bear
direct and indirect costs attributable to that class or service. The Postal Service uses
statistical models and studies to attribute costs to the mail classes in the CRA as the
accounting systems do not accumulate financial data by mail categories. The Postal
Service uses the IOCS, a statistical system, to allocate certain labor costs to its
products and services. Labor costs, which were $48.3 billion in fiscal year (FY) 2011,
are a significant portion of Postal Service costs.

The IOCS provides a mechanism for attributing clerk, mail handler, and supervisor labor
costs for activities performed inside Postal Service facilities. The accounting system
tracks these labor costs by work operations identified by a Management Operations
Data System (MODS) operations code.3 Summary labor costs are collected in 61 mail
processing cost pools, representing combinations of MODS operations that share
common characteristics, such as the mail processing equipment involved. Product
volume-variable labor costs are computed for each cost pool using employee work
activities reported through IOCS. Ratios generated by IOCS distribute these
volume-variable labor costs to mail classes and products. Mail processing equipment
also has the capability to capture images of mailpieces, which are useful in
cost-determination and revenue-protection initiatives.

Data collectors manually performed about 567,000 IOCS data collection readings4 in
FY 2011, approximately 306,000 of which involved clerks and mail handlers. The Postal
Service spends about $69 million a year to manually collect statistical data for analysis
and to prepare the CRA report. This includes about $13 million for IOCS data collection,


1
  Transportation Cost System Inputs into the Cost and Revenue Analysis Report (Report Number CRR-AR-11-004,
dated September 19, 2011). Revenue, Pieces, and Weight Inputs into the Cost and Revenue Analysis Report (Report
Number CRR-AR-12-003, dated January 27, 2012).
2
  The Postal Accountability and Enhancement Act of 2006, Sections 201 and 202.
3
  Management uses MODS operations codes, represented by a 3-digit number, to record all workhours at Postal
Service facilities according to the function or activity performed.
4
  An IOCS data collection reading consists of observing a selected employee at a designated time during the
employee's workday and recording the activity being performed at the time of the observation. In addition, the
characteristics of any mail, mail transportation, or processing equipment the sampled employee is handling or using
are recorded.
                                                               1
In-Office Cost System Inputs                                                                         CRR-AR-12-004
 into the Cost and Revenue Analysis Report


$1.3 million of which is spent on 61,574 data collection readings in automated
operations at mail processing facilities.

Conclusion

We found that the mail processing portion of labor costs could be attributed to products
and services using available automated data. Specifically, with additional system
enhancements, the Postal Service could use data from mail processing systems to
determine the mail processing portion of labor costs for product categories. Product
category information could be obtained from data extracted from mailpiece images and
mail volume and workhour information from MODS. The Postal Service could use this
data, combined with labor rates obtained from the payroll system, to compute the per
unit labor cost of processing mailpieces on automated machines, reducing the need for
manual data collection in the mail processing area.

Using census data5 to determine mail processing labor costs per piece would enable
the Postal Service to reduce 61,574 data collection readings a year, resulting in net
savings of $4.29 million over a 10-year period. Implementing the system enhancements
to use automated data for costing purposes will also result in additional operational
advantages. For example, the near real-time availability of per unit mail processing
costs for mail products will help the Postal Service to better control processing costs
and manage operations more efficiently. Additionally, the image recognition capabilities
of mail processing equipment could be used in the Seamless Acceptance6 process
planned for the future. In addition, the U.S. Postal Inspection Service (Inspection
Service) could use the image recognition capability to strengthen its revenue-protection
efforts. See Appendix B for additional details regarding the monetary impact.

Management stated that a substantial effort would be needed to modify existing
procedures to fully utilize image processing technology. In responding to our two prior
reports, Finance personnel disagreed with our cost-saving estimates and said that the
capabilities and costs for image recognition and data reporting for Revenue, Pieces,
and Weight purposes are unknown at this time. However, they stated they would
continue to work with stakeholders, including Operations and Product Information, to
identify data gaps and the processes needed to fill these gaps. Management also
agreed to coordinate with Engineering to form a working group and provide
specifications for Revenue, Pieces, and Weight data and evaluate image recognition
capabilities and, where feasible and cost-effective, develop an implementation plan.

Careful planning and substantial changes in systems and processes are necessary to
implement the options presented in this report, therefore, Postal Service Finance
personnel should continue consulting with other groups to develop a formal long-range
data needs roadmap that places a greater reliance on census data for product costing

5
  Census data involves using mail characteristics, such as mail type, volume, shape, and destination ZIP Code™,
captured from all mailpieces by automated systems, rather than relying on statistical sampling of mail.
6
  A program that automates business mail acceptance and verification processes for letter and flat mail from mailers
applying unique Intelligent Mail barcodes on mailpieces, trays, sacks, tubs, pallets, and other containers.


                                                          2
In-Office Cost System Inputs                                                                       CRR-AR-12-004
 into the Cost and Revenue Analysis Report


purposes. This should include fully utilizing the image recognition capabilities of mail
processing equipment to determine mail product information and obtaining the required
data elements — such as volume, workhour, and employee pay rate — by
implementing suitable system enhancements.

Census Data to Estimate Mail Processing Costs

The Postal Service could determine the unit labor costs of processing mail on
automated equipment using census data. The Postal Service would need to obtain the
volume of mail processed on a machine by product, the number of workhours
employees spend processing that mail, and their pay rates.

Volume of Mail by Product

The Postal Service currently has the capability to capture images of mailpieces
processed on mail processing equipment but, as stated in our previous reports, the
optical character recognition capability must be enhanced and implemented to capture
mail product information. With the enhanced ability to differentiate mail product
information, the Postal Service could obtain mailpiece volume by specific products
required for unit cost determinations from MODS. Using images, it would be possible to
know the volume of the different products being processed during a run on a piece of
automated equipment.

Employee Workhours

Information on workhours expended processing mail is currently available from MODS
for three-digit MODS operations codes. The Postal Service could improve the reliability
of MODS data, especially workhour and volume information, by linking employees with
the processing machine operations they are working on. This can be accomplished by
inputting employee information into the Web End-of-Run (WebEOR) system7 when the
mail processing operation begins. The WebEOR system has optional fields for entering
employee and supervisor information before the start of a processing operation.
Converting these optional fields to mandatory fields would help associate specific
operations with the employees who actually work on those operations. This information
is needed prior to extracting wage rates for specific employees from the payroll system.

The Postal Service uses innovative techniques in other Postal Service Operations areas
to match employees and their individual wage rates to specific equipment usage. For
example, Engineering developed technology known as the Powered Industrial Vehicle
Management System 8 and integrated it with the Time and Attendance System (TACS)9
to ensure labor costs related to the Powered Industrial Vehicle Management System are
accurate for operators of powered industrial vehicles for monitoring costs. The system,
7
  A software application that allows end users to retrieve, view, and store various mail processing
end-of-run statistics from automated mail processing equipment. The system provides a set of standard reports with
essential data for operating decisions.
8
  Powered Industrial Vehicle Management System evaluates the use of powered industrial vehicles.
9
  A timekeeping application which records employee workhours expended during various Postal Service operations.


                                                         3
In-Office Cost System Inputs                                                                    CRR-AR-12-004
 into the Cost and Revenue Analysis Report


which relies on employee access cards, gathers cost data for two MODS operations
codes.10

The Postal Service can adopt technology similar to the Powered Industrial Vehicle
Management System to associate employees with mail processing operations recorded
in other MODS operations. This would promote the accuracy of volume, workhour, and
hourly wage rate for different mail processing automation runs and sort schemes.
Additionally, this technology would allow the ability to link employees to specific mail
processing equipment to better manage labor and automated resources and ensure that
the workhours associated with processing mail in a specific operation is reliable.

Hourly Labor Rate

Management can determine the hourly cost of machine operators utilizing payroll and
TACS data. The hourly rates, coupled with the product, volume, and workhour
information, can be used to compute the unit cost of a product processed on automated
equipment. Linking employee information to mail processing operations recorded in
MODS and further integration with the TACS will help obtain the volume, workhours and
labor rate information necessary for unit cost calculation.

Unit Cost Calculations

Management could obtain the data required to calculate the unit labor cost for a mail
product, as discussed above. However, calculating the unit labor costs for processing a
specific mail product on a specific processing machine would require additional
information. Specifically, the volume of the mail product processed on each machine,
the workhours of employees who worked on the machine, and the pay rates of those
employees would be required to calculate the unit labor costs for a mail product.

In the simplest scenario, where only one mail product is processed in a single operation
where only one employee worked, the unit labor cost of processing that product in that
operation would equal the product of the hourly rate of that employee multiplied by the
number of hours that employee worked divided by the mailpiece volume of the product
processed. However, mail processing is a complex operation with multiple mail products
simultaneously being processed in multiple operations, multiple employees working in
different operations, and processing taking place in multiple locations. Therefore, the
calculation is complex and requires the use of data from multiple sources.

The data available from these various sources (such as TACS, MODS, and mailpiece
images) could be used to develop a costing model to address each level of the
complexities involved in the unit cost determination. For example, as the percentage of
each product processed in an operation can be determined, data could be collected for
different mail processing runs and sort schemes to compute the average cost per piece
processed on a particular machine in a plant. The Postal Service could collect detailed
data on the percentage of each product and the average cost from many mail
10
     Operation Number 229, Equipment Operator – Tow; and Operation Number 230, Equipment Operator – Forklift.


                                                        4
In-Office Cost System Inputs                                                                      CRR-AR-12-004
 into the Cost and Revenue Analysis Report


processing runs for a given machine type. The data from mail processing runs could be
aggregated and analyzed to estimate the average cost of each product for each
machine type.11 Rather than limiting this analysis to runs in a single plant, observations
from all plants or a sample of plants could be used in the analysis to estimate the costs
of the individual products for the given machine type on a national basis.

Determining the mail processing labor cost per unit using census data would enable the
Regulatory Reporting and Cost Analysis group to eliminate the need for IOCS testing in
automated mail processing operations. In our first report,12 we recommended
establishing a coordination committee to explore using census data for product costing
purposes. The coordination committee could explore how employee information from
the payroll system or TACS could be linked to the WebEOR system or MODS to obtain
the hourly wage rates of employees who work on specific operations. This and other
necessary system interfacing would enable the Postal Service to use additional census
data for product costing. As the Postal Service’s mail visibility and tracking capabilities
mature, the use of census data could be expanded to further decrease the dependence
on manual testing.

Operational Benefits of Enhanced Mail Imaging Technology

The system enhancements proposed for automating product costing will provide
additional operational benefits. The ability to determine the unit cost of operations by
mail products on a near real-time basis will help the Postal Service better control
processing costs and manage operations more efficiently. Additionally, the Postal
Service has projects in the planning and concept phases that could utilize enhanced
imaging capabilities. The Seamless Acceptance initiative could benefit from using
enhanced imaging capabilities, as could initiatives involving revenue protection, law
enforcement, and customer service.

Cost Control

The Postal Service could monitor mail processing costs at the product level on a near
real-time basis, as the unit cost of mail processing for mail products will be available.
This will be particularly useful to monitor the processing costs of mail products that have
not covered their costs. Rather than waiting until the year‘s end to report products that
failed to cover costs, the Postal Service will be able to proactively take action to ensure
unnecessary processing costs are not incurred for these products. The Postal Service
could establish cost thresholds for different processing operations for different mail
products and monitor the costs at a granular level by operation, plant, or district.
Additionally, the availability of volume by mail product and their associated costs could
enable the Postal Service to develop better marketing strategies for products and
services.

11
   Linear least squares regression analysis, which is a mathematical approximation method, could be used to conduct
this analysis.
12
   Transportation Cost System Inputs Into the Cost and Revenue Analysis Report (Report Number CRR-AR-11-004,
dated September 19, 2011).


                                                        5
In-Office Cost System Inputs                                                                     CRR-AR-12-004
 into the Cost and Revenue Analysis Report



Seamless Acceptance

The Seamless Acceptance initiative can use mailpiece images and weight, together with
the Intelligent Mail barcode, for mail acceptance, thereby reducing dependence on
clerks for mail verification. The Postal Service currently has a project in the proof of
concept phase to develop processes and systems to support Seamless Acceptance.
Under this concept, mail verification could take place during mail processing, as images
are examined and weights are compared against manifested records to ensure that
postage is accurate. Any shortfall in revenue could be determined and collected from
the mailer after the mail is processed and delivered. The Postal Service could also use
the mailpiece image as support to collect any short paid revenue from the mailer.

Currently, acceptance clerks verify and accept mailings in short timeframes. The U.S.
Postal Service Office of Inspector General (OIG) and others have reported that clerk
verifications are not always sufficient to ensure proper revenue collection.13 Using
images and weights for automated mail verification would be a suitable approach for
ensuring that the Postal Service collects all the appropriate revenue and would also
help reduce labor costs.

Revenue Protection

The Inspection Service uses mailpiece images



                                For example, improved image quality can provide
important evidentiary benefits in analyzing


Customer Service

The Postal Service has a pilot program called Real Mail Notification that uses electronic
notifications to alert customers of mail delivery. Customers who sign up for this program
receive notification containing electronic images of the mailpiece exteriors. The system,
which initially covers only letter mail, could be expanded to include flats and parcels,
pending the necessary software upgrades. System upgrades to produce high-quality
images for costing purposes will help capture additional data elements, such as the
indicia and ZIP Code, enhancing the utility of the program.




13
  FY 2010 Financial Installation Audit – Business Mail Entry Units (Report Number FF-AR-11-006, dated January 20,
2011); Electronic Verification System Rejected Transactions (Report Number CRR-AR-09-006, dated August 19,
2009); FY 2010 Sarbanes-Oxley Compliance Review by Ernst & Young, LLP, dated January 31, 2011.


                                                        6
In-Office Cost System Inputs                                                 CRR-AR-12-004
 into the Cost and Revenue Analysis Report



Recommendations

We recommend the chief financial officer and executive vice president direct the
manager, Regulatory Reporting and Cost Analysis, to:

1. Explore using census data from mail processing systems to calculate automated
   mail processing labor costs by mail product.

2. Coordinate with the Postal Regulatory Commission to use census data collection in
   place of manual data collection to determine automated mail processing costs.

We recommend the vice president, Network Operations, direct the manager, Network
Development Support, to:

3. Explore steps to link employee information to mail processing operations by
   evaluating various approaches, including requiring input of employee information
   into the Web End-of-Run system.

Management’s Comments

Management agreed with the recommendations but did not agree with the OIG
assessment of the readiness of systems and data or the estimate of monetary savings.
Management stated that the estimated savings could be substantially different from the
OIG’s estimate, as the cost of system enhancements to provide additional data is
unknown.

Management stated that, while technology exists to identify mail products at the level of
detail required for regulatory reporting and business use, the cost of implementation is
unknown and could affect savings estimates. Management further stated that if the
acquisition and maintenance costs of equipment to store, process, and transmit images
differ from OIG estimates, the business case for this initiative could change.

Regarding recommendation 1, management stated that, under the DRIVE initiative, they
are already working with other groups to assess system capabilities and gaps and to
enhance the systems for their use for labor costing. Management also stated that they
will explore ways to improve the link between employee workhours and volume data
reporting systems. In subsequent communications, management clarified that the
milestone date for completing actions for recommendation 1 is March 30, 2013.

Regarding recommendation 2, management stated that the Postal Service will
coordinate with the Postal Regulatory Commission (PRC) provided that using census
data proves to be practical and more cost effective. With regard to recommendation 3,
management stated they will evaluate systems and explore approaches to improving
the link between employee workhours and volume data reporting systems. They will
determine the target completion date based on the software/hardware requirements



                                             7
In-Office Cost System Inputs                                             CRR-AR-12-004
 into the Cost and Revenue Analysis Report


needed to support the endeavor. See Appendix C for management’s comments in their
entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive and corrective actions should
resolve the issues identified in the report. The OIG recognizes that additional
investments in systems enhancements are required to use automated data for product
costing purposes. The Transportation Cost System and the Revenue, Pieces, and
Weight reports we issued previously already included a major portion of the required
system upgrade costs. Therefore, this report only includes the additional investment
required to accomplish labor costing and we believe our estimate is a conservative
estimation of the monetary benefits which may be realized.




                                             8
In-Office Cost System Inputs                                                     CRR-AR-12-004
 into the Cost and Revenue Analysis Report



                             Appendix A: Additional Information

Background

The Postal Service annually prepares the CRA report to determine whether it complied
with the statutory requirement that each class or type of mail service bear the direct and
indirect costs attributable to that class or service. The Postal Service’s accounting
systems do not accumulate financial data by mail category. The Postal Service uses
methodologies approved by the PRC, which include the use of apportionment factors
derived from operational and statistical information sources, to prepare the CRA report.
Major statistical systems used in the CRA process include IOCS, the City Carrier Cost
System, and the Rural Carrier Cost System to attribute labor costs; the Transportation
Cost System to attribute mail transportation costs; and the Revenue, Pieces, and
Weight System to estimate national Revenues, Pieces, and Weight information. Data
collectors conduct more that 800,000 data collection readings a year to provide data for
these systems. Special studies and operational information provide additional data
required for cost development.

IOCS provides a mechanism for attributing certain labor costs to activities performed
within the Postal Service’s network. The IOCS is a sampling system that distributes the
labor costs of clerks, mail handlers, city carriers, and supervisors to the activities carried
out by those employees, particularly activities related to mail processing. Currently, mail
processing volume-variable costs by mail product and special services are computed
using the volume-variability/distribution key method. Using this method, the IOCS
generates distribution ratios for 61 mail processing cost pools to attribute the
volume-variable portion of labor costs to mail classes and products.

IOCS samples blocks of employee workhours and develops estimates of the
proportions of employee workhours spent on various functions in the office and, for
some of these functions, the proportions of time spent handling or processing various
categories of mail. The time proportions are then used to distribute certain labor costs to
each mail class and product and to each special service. IOCS also indirectly provides
data for the calculation of certain non-labor costs — such as mail processing equipment
costs — related to sampled labor activities.

Objective, Scope, and Methodology

Our objective was to determine whether the mail processing portion of labor costs could
be attributed to products and services using available automated data. In addition, we
determined whether there were operational benefits that would be derived from the use
of automated data and process changes.

We interviewed personnel, evaluated policies and procedures, and reviewed systems
documentation relating to IOCS and other statistical systems. We engaged a contractor
to assist in our work, provided guidance to the contractor, and supervised the



                                              9
    In-Office Cost System Inputs                                                  CRR-AR-12-004
     into the Cost and Revenue Analysis Report


    contractor’s work to accomplish our objective. We used the contractor to determine
    whether management could adapt the current IOCS data collection system to provide
    more cost-effective and better data collection methods. We also used the contractor to
    determine the feasibility of using census data to replace the current manual data
    collection.

    We evaluated business processes, the availability of system-generated data, and
    potential enhancements to systems and processes. We did not base our conclusions on
    the analysis of computer-generated data, therefore, did not evaluate the reliability of any
    such data

    We conducted this performance audit from August 2011 through May 2012 in
    accordance with generally accepted government auditing standards and included such
    tests of internal controls as we considered necessary under the circumstances. Those
    standards require that we plan and perform the audit to obtain sufficient, appropriate
    evidence to provide a reasonable basis for our findings and conclusions based on our
    audit objective. We believe that the evidence obtained provides a reasonable basis for
    our findings and conclusions based on our audit objective. We discussed our
    observations and conclusions with management on April 25, 2012, and included their
    comments where appropriate.

    Prior Audit Coverage

                                        Final       Monetary
                       Report          Report      Impact (in
  Report Title        Number             Date       millions)          Report Results
Cost and              CRR-AR-         7/27/2010      None       The Postal Service needs to
Revenue                10-003                                   establish proper access
Analysis                                                        controls for its shared
Reporting Model                                                 network drive and could
                                                                enhance controls by
                                                                improving CRA process
                                                                documentation. Management
                                                                agreed with the findings and
                                                                recommendations.




                                                  10
    In-Office Cost System Inputs                                                CRR-AR-12-004
     into the Cost and Revenue Analysis Report


Transportation         CRR-AR-        9/19/2011         $9.8    Additional planning, systems
Cost System             11-004                                  design, and system
Inputs into the                                                 integration could enable the
Cost and                                                        Postal Service to use more
Revenue                                                         of the data generated by
Analysis Report                                                 operational systems for CRA
                                                                cost-attribution purposes.
                                                                Management agreed with the
                                                                findings and
                                                                recommendations, but
                                                                disagreed with the monetary
                                                                impacts.
Revenue, Pieces,       CRR-AR-        1/27/2012        $127.9   The Postal Service could
and Weight              12-003                                  reduce manual data
Inputs into the                                                 collection for Revenue,
Cost and                                                        Pieces, and Weight
Revenue                                                         estimation by modifying
Analysis Report                                                 automated processes to
                                                                collect mailpiece images for
                                                                analysis and by moving
                                                                sampling from mail exit
                                                                points to supporting
                                                                processing plants.
                                                                Management agreed with the
                                                                findings and
                                                                recommendations, but
                                                                disagreed with the monetary
                                                                impacts.




                                                  11
In-Office Cost System Inputs                                                                      CRR-AR-12-004
 into the Cost and Revenue Analysis Report


                                   Appendix B: Monetary Impacts

                      Finding                        Impact Category                      Amount

             IOCS Data Collection               Funds Put to Better Use14               $4,289,691

The Postal Service could achieve cost savings and increase reporting accuracy in labor
cost attribution by developing an automated process to use available census data in the
mail processing area. As stated in the report, developing enhancements to the
WebEOR and TACS applications would provide labor hours to determine the mail
processing portion of labor cost for products and services and render manual IOCS data
collections in the mail processing area unnecessary. We estimate this and other system
enhancements to cost $5 million, with an annual maintenance expense of $250,000.
This investment would result in annual cost savings of $1.30 million due to the
elimination of 61,574 IOCS data collection readings taking place in the mail processing
area, which equates to the reduction of 16 full-time positions. The remaining readings
could be conducted over the phone, consolidating the required resources in centralized
locations. The net present value of the resulting savings over a 10-year period is
approximately $4.29 million.

The system enhancements proposed to implement automated costing solutions will also
have operational benefits in areas such as mail acceptance, revenue protection, and
performance tracking.




14
  This term is synonymous with the term ‘costs avoided.’ The monetary impact represents the net present value of
cash flows for 10 years discounted at the Postal Service’s current borrowing rate of 2.6 percent.


                                                        12
In-Office Cost System Inputs                                   CRR-AR-12-004
 into the Cost and Revenue Analysis Report


                           Appendix C: Management’s Comments




                                             13
In-Office Cost System Inputs                      CRR-AR-12-004
 into the Cost and Revenue Analysis Report




                                             14
